HHS/OIG-Audit--"Review of Unfunded Pension Costs of Anthem Blue Cross and Blue Shield of Connecticut, (A-07-98-02501)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Anthem Blue Cross and Blue Shield
of Connecticut," (A-07-98-02501)
March 24, 1998
Complete Text of Report is available in PDF format
(200 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Unfunded Pension Costs of
Anthem Blue Cross and Blue Shield of Connecticut (Connecticut). During our previous
review of Connecticut (CIN: A-07-93-00710), we determined that the Medicare
segment accumulated $184,209 in unfunded pension costs as of January 1, 1992.
Additionally, as of January 1, 1992, Connecticut had accumulated unabsorbed
credits totaling $53,183 attributable to the Medicare segment. These unabsorbed
credits, which were allocable to Medicare contracts in prior periods, must be
absorbed by future pension costs, and are unallowable for Medicare reimbursement.